                      \   -

                                     NATIONAL SCIENCE FOUNDATION
                                     OFFICE OF INSPECTOR GENERAL
                                        OFFICE OF INVESTIGATIONS


                          CLOSEOUT MEMORANDUM




paper (the ~ a ~ e d . 2
In response to our query, the PI responded that he used parts of the paper in the
background section of the proposal: >Hesaid :he~referencedthe paper and used parts .                         a




of the paper with permission from one.of the papdr's authors (the author). The PI             %




said the author was the founder of thewcompanya t which the PI worked and will be            .. .
a consultant on the project. <%The
                                 ~E?I!includedla
                                               let'tertfrop the author confirming h e $ -: I i~ : + -
was founder of the compa~y~~iiiveht~d-'th&.techni~ue:the!proposal  relied upon, and .' .:! ,'
had given permission for emplbyees,ofthe:company.to u$e his paper in proposals. -. , ; ;
Although the PI cited the paper, it wadvnok referenced near the copied, verbatim                    j       .,
text or figures, nor was tlie copied niaterial distinguished from the PI'S original
material. Nonetheless, the permission from the author to allow the PI to use                            I



material from the paper in proposals severely undercuts a n allegation of plagiarism.                   ,.
We sent the PI a letter reminding him he should cite the original source and use
quotation marks when he uses verbatim text or figures to avoid any potential
confusion about authorship. This case is closed.
